Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   CENTRAL CITY CONCERN,
  A HEALTH RESOURCES AND
  SERVICES ADMINISTRATION
   GRANTEE, CLAIMED SOME
 INADEQUATELY DOCUMENTED
      COSTS UNDER THE
       RECOVERY ACT

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                      November 2012
                                                      A-09-11-01009
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996, P.L. No. 104-299, consolidated the Health Center
Program under section 330 of the Public Health Service Act. This program provides
comprehensive primary health care services through planning and operating grants to health
centers. Health centers are nonprofit private or public entities that serve designated medically
underserved populations and areas, as well as vulnerable populations of migrant and seasonal
farmworkers, the homeless, and residents of public housing. Within the U.S. Department of
Health and Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center Program.

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Facilities Investment Program (FIP), Capital
Improvement Program (CIP), and Increased Demand for Services (IDS) grants.

Central City Concern (Central City) is a nonprofit agency that serves single adults and families
in the Portland, Oregon, metropolitan area. Central City has developed a comprehensive
continuum of affordable housing options integrated with direct social services, including health
care, recovery, and employment services.

During calendar year 2009, HRSA awarded Central City approximately $9.6 million in Recovery
Act funds. These awards consisted of $8,950,000 under a FIP grant to help fund the construction
of a new medical facility; $426,400 under a CIP grant to improve program efficiencies, patient
access, and information technology infrastructure; and $187,917 under an IDS grant to increase
access and reduce barriers to health care within Central City’s service area. We limited our
review to costs totaling $5,138,216 that Central City claimed under the FIP, CIP, and IDS grants
for the period March 27, 2009, through June 27, 2011.

As a nonprofit organization receiving Federal funds, Central City must comply with Federal cost
principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations. These cost
principles require that grant costs claimed for Federal reimbursement be allowable and
adequately documented, including the requirement that the grantee maintain signed personnel
activity reports that reflect an after-the-fact determination of the actual activity of each employee
working on Federal awards.

OBJECTIVE

Our objective was to determine whether the costs that Central City claimed were allowable in
accordance with the terms of the Recovery Act grants and applicable Federal requirements.




                                                  i
SUMMARY OF FINDING

Of the $5,138,216 of Central City’s costs that we reviewed, $5,040,282 was allowable in
accordance with the terms of the Recovery Act grants and applicable Federal requirements.
However, Central City claimed $97,934 in IDS grant costs that were inadequately documented,
consisting of (1) direct costs of $87,441 for three employees’ salaries, wages, and fringe benefits
that were not supported by personnel activity reports that reflected an after-the-fact
determination of the actual activity of each employee and (2) indirect costs of $10,493 that were
based on a percentage of the salaries, wages, and fringe benefits. Central City claimed these
unsupported costs because it did not have written policies and procedures for maintaining
personnel activity reports that complied with Federal requirements.

RECOMMENDATIONS

We recommend that HRSA:

   •   either require Central City to refund to the Federal Government $97,934 for inadequately
       documented costs claimed under the IDS grant or work with Central City to determine
       whether any of the costs claimed were allowable and

   •   ensure that Central City develops and implements written policies and procedures for
       maintaining personnel activity reports that comply with Federal requirements.

CENTRAL CITY CONCERN COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Central City stated that it believed that costs were
adequately documented for eight employees because personnel activity reports were properly
signed and approved. (This finding was included only in the draft report sent to Central City.)
Central City provided additional documentation to support approval information for these
personnel activity reports. Regarding our finding related to after-the-fact determination of
activity for three of the eight employees, Central City agreed that the costs for one employee
were not adequately documented and should be refunded. For two employees, Central City
stated that it believed that the costs were appropriate. Central City’s comments are included in
their entirety as Appendix A.

After reviewing the additional documentation provided by Central City, we agree that the costs
for the eight employees were supported by signed personnel activity reports and removed that
finding from our report. However, Federal cost principles clearly state that personnel activity
reports must also reflect an after-the-fact determination of the actual activity of each employee
and that budget estimates do not qualify as support for charges to awards. Our documented
conversations and emails with Central City staff show that Central City used predetermined
allocations of time (i.e., budget estimates) for three employees. Therefore, we maintain that our
finding is valid.




                                                 ii
HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                           iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Health Center Program ...................................................................................... 1
              American Recovery and Reinvestment Act of 2009.......................................... 1
              Central City Concern ......................................................................................... 1
              Federal Requirements for Grantees ................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 2

FINDING AND RECOMMENDATIONS ............................................................................. 3

          FEDERAL REQUIREMENTS ...................................................................................... 3

          INADEQUATELY DOCUMENTED COSTS CLAIMED
            FOR FEDERAL REIMBURSEMENT ...................................................................... 4

          RECOMMENDATIONS ............................................................................................... 4

          CENTRAL CITY CONCERN COMMENTS ............................................................... 4

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 5

          HEALTH RESOURCES AND SERVICES
           ADMINISTRATION COMMENTS ......................................................................... 5

APPENDIXES

          A: CENTRAL CITY CONCERN COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iv
                                       INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996, P.L. No. 104-299, consolidated the Health Center
Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). This program
provides comprehensive primary health care services through planning and operating grants to
health centers. Health centers are nonprofit private or public entities that serve designated
medically underserved populations and areas, as well as vulnerable populations of migrant and
seasonal farmworkers, the homeless, and residents of public housing. Within the U.S.
Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Facilities Investment Program (FIP), Capital
Improvement Program (CIP), and Increased Demand for Services (IDS) grants.

Central City Concern

Central City Concern (Central City) is a nonprofit agency that serves single adults and families
in the Portland, Oregon, metropolitan area. Central City has developed a comprehensive
continuum of affordable housing options integrated with direct social services, including health
care, recovery, and employment services.

During calendar year 2009, HRSA awarded Central City $9,564,317 in Recovery Act funds,
consisting of:

   •   $8,950,000 under a FIP grant to construct a new building;

   •   $426,400 under a CIP grant to improve program efficiencies, patient access, and
       information technology infrastructure; and

   •   $187,917 under an IDS grant to increase access and reduce barriers to health care within
       Central City’s service area.

Grant funding for the FIP and CIP grants was for direct costs only. However, funding for the
IDS grant was for direct costs ($167,784) and indirect costs ($20,133). Indirect costs were based




                                                1
on a percentage of total direct costs; Central City negotiated the indirect cost rate with the U.S.
Department of Housing and Urban Development.

Federal Requirements for Grantees

Federal regulations (45 CFR part 74) establish uniform administrative requirements governing
HHS grants and agreements awarded to nonprofit organizations. As a nonprofit organization
receiving Federal funds, Central City must comply with Federal cost principles in 2 CFR
part 230, Cost Principles for Non-Profit Organizations, incorporated by reference at 45 CFR
§ 74.27(a). These cost principles require that grant costs claimed for Federal reimbursement be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
allowability of costs in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the costs that Central City claimed were allowable under
the terms of the Recovery Act grants and applicable Federal requirements.

Scope

We performed this review in response to a request from HRSA. Of the $9,564,317 that HRSA
awarded to Central City, we limited our review to costs totaling $5,138,216 that Central City
claimed under the FIP, CIP, and IDS grants for the period March 27, 2009, through
June 27, 2011. 1 We limited our review of internal controls to those that pertained directly to our
objective.

We performed our fieldwork at Central City’s office in Portland, Oregon, during the period
July to November 2011.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, notices of awards, and guidance;

1
 Of the $5,138,216, Central City claimed costs totaling $4,523,899 for the FIP grant, $426,400 for the CIP grant,
and $187,917 for the IDS grant.


                                                         2
   •   reviewed Central City’s HRSA grant applications and supporting documentation;

   •   reviewed Central City’s federally negotiated indirect cost rate agreement;

   •   interviewed Central City’s personnel to gain an understanding of Central City’s
       accounting system, internal controls over the claiming of costs for Federal
       reimbursement, and FIP, CIP, and IDS grant activities;

   •   reviewed Central City’s procedures on accounting for funds, documenting transactions,
       withdrawing Federal funds, and processing payroll;

   •   reviewed Central City’s independent auditor’s reports and related financial statements for
       fiscal years ended June 30, 2009, and June 30, 2010;

   •   reviewed for allowability Central City’s costs claimed under the FIP, CIP, and IDS
       grants; and

   •   discussed the results of our review with Central City officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

Of the $5,138,216 of Central City’s costs that we reviewed, $5,040,282 was allowable in
accordance with the terms of the Recovery Act grants and applicable Federal requirements.
However, Central City claimed $97,934 in IDS grant costs that were inadequately documented,
consisting of (1) direct costs of $87,441 for three employees’ salaries, wages, and fringe benefits
that were not supported by personnel activity reports that reflected an after-the-fact
determination of the actual activity of each employee and (2) indirect costs of $10,493 that were
based on a percentage of the salaries, wages, and fringe benefits. Central City claimed these
unsupported costs because it did not have written policies and procedures for maintaining
personnel activity reports that complied with Federal requirements.

FEDERAL REQUIREMENTS

Pursuant to 2 CFR part 230, Appendix A, § A.2.g., to be allowable under an award, costs must
be adequately documented. Pursuant to 2 CFR part 230, Appendix B, §§ 8.b. and 8.m., for
salaries and wages to be allowable for Federal reimbursement, grantees must maintain personnel
activity reports that reflect the distribution of activity of each employee whose compensation is
charged, in whole or in part, directly to Federal awards. The reports must reflect an after-the-fact
determination of the actual activity of the employee, be signed by the employee or a supervisory
official having firsthand knowledge of the employee’s activities, be prepared at least monthly,


                                                 3
coincide with one or more pay periods, and account for the total activity of the employee.
Pursuant to 2 CFR part 230, Appendix B, § 8.m.(2)(a): “Budget estimates (i.e., estimates
determined before the services are performed) do not qualify as support for charges to awards.”

INADEQUATELY DOCUMENTED COSTS CLAIMED FOR FEDERAL
REIMBURSEMENT

Central City claimed for Federal reimbursement $97,934 in IDS grant costs that were
inadequately documented:

   •   Central City did not adequately document $87,441 in salaries, wages, and fringe benefits
       that it claimed as direct costs. Specifically, for three employees with time charged to the
       grant, Central City’s personnel activity reports did not reflect an after-the-fact
       determination of the actual activity of each employee.

   •   Of the $20,133 that Central City claimed for indirect costs, $10,493 was based on a
       percentage of the inadequately documented salaries, wages, and fringe benefits.

Central City claimed these unsupported costs because it did not have written policies and
procedures for maintaining personnel activity reports that complied with Federal requirements.

RECOMMENDATIONS

We recommend that HRSA:

   •   either require Central City to refund to the Federal Government $97,934 for inadequately
       documented costs claimed under the IDS grant or work with Central City to determine
       whether any of the costs claimed were allowable and

   •   ensure that Central City develops and implements written policies and procedures for
       maintaining personnel activity reports that comply with Federal requirements.

CENTRAL CITY CONCERN COMMENTS

In written comments on our draft report, Central City stated that it believed that costs were
adequately documented for eight employees because personnel activity reports were properly
signed and approved. (This finding was included only in the draft report sent to Central City.)
Central City provided additional documentation to support approval information for these
personnel activity reports.

Regarding our finding related to after-the-fact determination of activity for three of the eight
employees, Central City agreed that the costs for one employee (a panel manager) were not
adequately documented and should be refunded. For two employees (a health assistant and a
primary care provider), Central City stated that it believed that the costs were appropriate.




                                                 4
     •    Central City stated that the health assistant worked solely in the position funded by the
          grant; therefore, no after-the-fact reconciliation of time was necessary.

     •    Central City stated that the primary care provider correctly reported by facility the actual
          time worked. Central City stated that it erroneously applied a predetermined allocation
          to a portion of the actual time, which resulted in an inaccurate allocation of time among
          three facilities but not an overallocation in total.

Central City’s comments are included in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the additional documentation provided by Central City, we agree that the costs
for the eight employees were supported by signed personnel activity reports and removed that
finding from our report. However, Federal cost principles (2 CFR part 230, Appendix B, § 8.m.)
clearly state that personnel activity reports must also reflect an after-the-fact determination of the
actual activity of each employee and that budget estimates do not qualify as support for charges
to awards.

Our documented conversations and emails with Central City staff show that Central City used
predetermined allocations of time (i.e, budget estimates) for three employees:

   •     Central City officials told us that the health assistant worked 80 percent of her time on
         IDS-related activities and 20 percent of her time on non-IDS-related activities. These
         percentages were based on budget estimates, which do not qualify as support for charges
         to awards.

   •     During the audit, Central City officials stated that they used an estimated
         50/40/10 percent split among 3 facilities for a portion of the primary care provider’s
         recorded hours and said that the 40-percent portion of this split was not related to IDS.
         Because predetermined allocations are budget estimates, they do not qualify as support
         for charges to awards.

Therefore, we maintain that our finding is valid.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                    5
APPENDIXES
                                                                                                                      Page I of5

            APPENDIX A: CENTRAL CITY CONCERN COMMENTS 




                                                                                                    Changing lives
•           CENTRAL CITY
    ~       concern                                                                         Building communities
                                                                                            Creating opportwli.ties


    Jl,lly31 ,20 12

    Lori A. Ahlstrand 

    RegionaJlnspeclOf General for Audit Services 

    Office of Audit Services, Region IX 

    90 - 7'" Street, Suile 3-650 

    San Francisco, CA 94 103 


    Re. Response to report number A-09-11-0 1009

    Dear Ms. AhlslTlmd,

    This letter is in response 10 the draft audit roport issued by the OflH:e of the Inspector General. dated July
    11 , 2012. We appreciate the opportunil)' to respond 10 Ihe draft report.

    Your fInding for eight of our employees re late to a twO-part adequate documentation requirement - Part 1:
    signed ptm;OlI!lcl lictivily reports, and Part 2: 1111 after-the-fact detcmlination of actual activity. We will
    respond, below, to Ihe two requirements, separately.

    Finding:

    Central City claimed SI64,806 in IDS grant COINS Ihal were inadequatefydocllmented, consisting
    0/(1) direct cosu 0/514 7, 148 for salaries, wages, am/fringe benefits that were not supported by
    signed personnel acli,,;ity reports 1I'(1t reflected on ajter-thejact determination o/the actual
    activity 0/each employee and (2) indirect costs 0/SI7,658 that were based on a percentage oj
    the salaries, wages, andfringe benefits.

    CCC's RCSI)onse 10 tbe Fioding:

    During the period ofdu: Aud it; Central City Concern utili7.ed first, ADP e-Time and laler, Ultimate Time
    Managemellt electronic timekeeping software systems. Emp loyces are required to entl!r their time for
    cach time period, ccni!y thattllc time entered accurately reflects time worted, and submit to their
    manager for app'ova t. Managers are required to then review tnc submitted time.heets for ~uracy And
    completeness and approve, as appropriate.

    Part J; Signed Personnel Activity Sheet R!:9,uirement: AI the time or the audit., a sample of a timesheet
    submitted by an employee and appmred by their manager was provKled to the auditors (see attached).
    'Ibe timecard sublllission and approval process was disc ussed in detail. The auditors ind icuted that tnc
    sam ple provided sufficient evidence 10 satisfy the "signed personnel activi!), reports'" requiremen t

    It was our ovcrsight that we did DOl include the approval information for each ofthe sample items for the
    auditor, however. we can provide this for all eight orthe employees Stlmpled, opon reqoest.




232 v.N Sixlh Avenue   I Portlaod. Oregon 91209 I    503-294-1681   I   503-:z94.4321 fax    I v.ww.cenuakltyc:ofl{em.org
                                                                                                                           Page 2 of5




                                                                                                          Changing lives
•            CENTRAL CITY
    ~        concern                                                                            Bulldin.g communities
                                                                                                Creating opportunities


    Based OIl our discussions with thc .!I.uditor, WhCTC no conct'ms related 10 approval were idC'lltified, we
    1><1;", '''' Ih' """ oh,,,,oI o[$I64,806($ I47,I48 dU<ei md $17,658 ;oo;=I) .re
    dcx;umcnlcd to meet Pan I armerequirement.
                                                                                                      "'''"''''y                   ,I
    Part 2: Mer-the-fact DetenIJinatioo QfAct.ua! Activity; 

    In addition, yo ur finding ind icated that for three or the e igh t emp loyees, noted above, tile personnel 

    acti vity reports did not reflect an after-the-fact delemlinatioll or lhe actual activity ofeach cmpluyee. We 

    will address each orthe three, stpamtcly, below. These three resulted in a 101111 finding of$96, 746 

    (SII6,380 direct and $10.)66 indirect). 


     I. 	 Health i\ ~sistanl The budget proposal for the IDS grant included a 1.0 FTE Health A~istanllO 

          perform the serv ices outlined in the fDS grant This em ployee worked solely in Ihe position funded 

          by the grant; therefore, no afier-the-fact reconci liation of tUne was necessary. Therefore, we believe 

          that the eosts eharged of $4I ,023 ($36,628 direa lind $4,395 indirect) are appropriate. 


    2. 	 Prima!)' Care Proyjder The budget for the IDS grant also included II 0.6 FTE Primary Cllre 

         J'rovider (mid-level) IIJld a 0.2 F1l! Primary Care Pruvider(MD internist). The budgeted position 

         provided primary cllre services only at the three facilities outlined in the IDS gmnt: the Old Town 

         Clinic, Primllry Cllre at 12111 and Hooper Centcr, and nolill any other CCC fllcililie~. The employee 

         correctly reported actual dme worked by faci lity. Our error was that a pre-detenl1ined allocation was 

         applied erroneously to a portion of the actual time. This resulted in an inaooUl'llte IIllocati on oftime 

         between fACilities, but not an over allocation in total. Therefore, we believe that the costs ehargt'd of 

         $31,792 (528,386 direct and 53,406 indirect) are IIppropriate. 


     3. 	 Panel Manager· The budget for the IDS grant incl uded a.s Pand Manager. 'Ibis employee 

          provided services at the Primary Care al 12" fac ility. wh ich is included in the grant and althe 12" 

          Avenue Recovery Center, wh ic h is 0. facililY not included in the gnml. Our error was that we did not 

          perfonn an after·lhe-fact reconciliation to ensure accuracy of the pn:-delermined o.l1ocation. 

          '1berefore, we agree with the find ing that costs ehllrged of $23,931 (52 1,367 direct and $2,S64 

           indirect) were inadequately documented and should be refunded to thc Federal Go~·emment . 


         This situat ion was ident ified in January 2011 , during tho: 4111 quarter 201 0 routin t inttm31 review of 

         the quarterly report, liS required by the gmnt. Allhllt time we moo ified how tht employee recorded 

         aclual time wori:cd, for the remainder ofthe conlrl:lct. 





212 NW Sixth Avet'lue   I   Portland, OregOl'l 97209   I   503294 1681   I   503-294-4321 fa.    I   wv.rw_cenualcitycOO(ern_org
                                                                                                                         Page 3 of5




                                                                                                         Q"l.CIr1ging lives
•          CENTRAL CITY
    ~       concern                                                                              Building communities
                                                                                             Creating optx)rtunities


    We appreciate the opportunity 10 continuously improve our qUlllity and compliance and to work with the
    Office of the Inspector General and HRSA to achieve our shared goab of high -quality health care
    supported by highly compliant fiuancial and operational documentation. When you have had the
    oppommity to rev iew o ur response, please contact me at your convenience to schedu le II time to discuss
    further.



    ~r"
    ~a[QQ.:;J
    Katheri ne A. Ell is, MBA, CPA, CIA 

    Ch ief Financial Officer 

    Central City Concern 

    Tel. 50]-294- 168 1 

    Fax. 503-294-4321 





    cc:
    Ed Blackburn 

    Executive Diret:lor 

    ('-enlral City Concern 


    Mlltiet Slecn kamp 

    Controller 

    Cenlnl! City Coneen! 


    Leslie Tallyn 

    Din:dor of Quality and Com pliance 

    Ccnlmi City Concern 





232 NW SiXlh Avenue   I   Port land, Oregon 97209   I   503 -294- 1681   I   503 -294-4321 fax   I   www,c~mr~l~it~oncern.org
                                           Page40fS




Timocard "Employee 1 4113/2010-5/1012010
          Week starting: Mon 4112 





          Week starting: Men 4f19




          Week starting: Mon 4126 





          Week starting: Mon 5/03




          W eek starting : Man 5110 





         Sign-offs & Approvals
                                            Page 5 of5




Timecard Employee 2 10/1312009.10/2612009
          Week starting: Mon 10/12




          Week starting: Mon 10/19




          Week starting: Mon 10/26




         Sign-offs & Approvals
                                                                                          Page 1 of2


   APPENDIX B: HEALTH RESOURCES AND SERVICES 

           ADMINISTRATION COMMENTS 



DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                             Health Resources and Services
                                                                     Administration


                                                                     Rockville MD 20857


                                     ceT 2 5 012



TO: 	         Inspector General

FROM: 	       Administrator

SUBJECT: 	    OIG Draft Report: "Central City Concern, a Health Resources and
              Services Administration Grantee, Claimed Inadequately Documented
              Costs Under the Recovery Act" (A-09-11-01009)

Anached is the Health Resources and Services Administration's (HRSA) response to
the OIG's draft report, "Central City Concern, a Health Resources and Administration
Grantee, Claimed Inadequately Documented Costs Under the Recovery Act"
(A-09- 11 -01009). If you have any questions, please contact Sandy Seaton in HRSA's
Office of Federal Assistance Management at (301) 443-2432.




Attachment
                                                                                                   Page 2 of2




  Health Resources and Services Administration's Comments on the OIG Draft Report­ 

"Central City Concern, a Health Resources and Services Administration Grantee, Claimed 

               Inadequately Documented Costs Under the Recovery Act" 

                                   (A-09-11-01009) 


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office of Inspector General (OIG)
draft recommendations are as follows:

OIG Recommendation to HRSA:

We recommend that HRSA either require Central City to refund the Federal Govenunent
$97,934 for inadequately documented costs claimed under the IDS grant or work with Central
City to determine whether any of the costs claimed were allowable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to determine
whether any of the IDS costs claimed by the grantee were unallowable and should be refunded.

OIG Recommendation to HRSA:

We recommend that HRSA ensure that Central City develops and implements written policies
and procedures for maintaining personnel activity reports that comply with Federal requirements.

HRSA Response:

HRSA concurs with the OIG recommendation and will ensure that the grantee develops and
implements written policies and procedures for maintaining personnel activity reports that
comply with federal requirements.
